No. 20A98

 

 

IN THE
Supreme Court of the United States

MIKE KELLY, U.S. Congressman; SEAN PARNELL; THOMAS A. FRANK; NANCY
KIERZEK; DEREK MAGEE; ROBIN SAUTER; MICHAEL KINCAID; and WANDA.
LOGAN,

Applicants,
v

COMMONWEALTH OF PENNSYLVANIA; PENNSYLVANIA GENERAL ASSEMBLY;
THOMAS W. WOLF, in his official capacity as Governor of the Commonwealth of
Pennsylvania; and KATHY BOOCKVAR, in her official capacity as Secretary of the
Commonwealth of Pennsylvania,

Respondents.

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Third Circuit

MOTION FOR LEAVE TO FILE AMICUS BRIEF, MOTION FOR LEAVE
TO FILE BRIEF UNDER RULE 33.2, AND BRIEF OF AMICI CURIAE
STATE SENATOR JAY COSTA AND STATE SENATOR LISA M.
BOSCOLA, MEMBERS OF THE DEMOCRATIC CAUCUS OF THE
SENATE OF PENNSYLVANIA, IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,562 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 298 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 8, 2020.
No. 20A98

Colin Casey Vlorad

Wilson-Epes Printing Co., Inc.
